Federal Public Defender
Central District of Illinois
The Honorable Scott. S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington D.C. 20543
December 28, 2020
Re: Nathaniel Ruth v. United States, No. 20-5975
Dear Mr. Harris:
I represent Petitioner Nathaniel Ruth in the above-captioned case, which is currently pending
before this Court on a petition for a writ of certiorari. The respondent’s brief was filed on December 23,
2020. Petitioner’s reply is filed on December 28, 2020, contemporaneous with this letter. Pursuant to
Rule 15.5, Petitioner expressly waives the 14-day waiting period for distribution of the case to the Court.
I respectfully request that the Clerk distribute the case on the next distribution date for in forma pauperis
cases, which I believe to be December 30, 2020.
Thank you for your time, and please have a good day.
Sincerely,
s/ Johanes Maliza

cc:

Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Ave. N.W.
Room 5616
Washington, D.C. 20530-001
SupremeCtBriefs@usdoj.gov

FEDERAL
PUBLIC DEFENDER
Thomas W. Patton
SENIOR LITIGATOR
George Taseff

ASSISTANT DEFENDERS
Robert Alvarado
Karl Bryning
Johanna Christiansen
Peter Henderson
Daniel Hillis
Johanes Maliza
Brian Mullins
Elisabeth Pollock
Rosanna Brown
Colleen Ramais
Website: http://ilc.fd.org

OFFICES
401 Main St., Ste 1500
Peoria, IL 61602
(309) 671-7891
(309) 671-7898 (fax)

600 E. Adams St., 3rd Fl.
Springfield, IL 62701
(217) 492-5070
(217) 492-5077 (fax)
300 W. Main Street
Urbana, IL 61801
(217) 373-0666
(217) 373-0667 (fax)

